Case: 20-1378

Document: 10-2

Page: 1

Date Filed: 06/11/2020

May 28, 2020
* AMENDED CLD-211
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-1378
KATHLEEN MCCULLOUGH, Appellant
VS.
COMMONWEALTH OF PENNSYLVANIA, et al.
(W.D. Pa. Civ. No. 2:19-cv-00115)
Present:

JORDAN, KRAUSE, and MATEY, Circuit Judges
Submitted are:
1)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1); and

*2)

Appellant’s motion for summary action, filed May 28, 2020

in the above-captioned case.
Respectfully,
Clerk
________________________________ ORDER________________________________
Jurists of reason would agree that the District Court correctly concluded that
Appellant’s petition filed pursuant to 28 U.S.C. § 2254 was untimely, and that she did not
present any arguable basis for equitable tolling. See 28 U.S.C. § 2244(d); Holland v.
Florida. 560 U.S. 631, 652-53 (2010). The application for a certificate of appealability is
denied. See Slack v. McDaniel. 529 U.S. 473, 484 (2000); 28 U.S.C. § 2253(c).
Appellant’s motion for summary action is denied.
By the Court,
s/ Cheryl Ann Krause
Circuit Judge
Dated: June 11, 2020
Lmr/cc: Kathleen McCullough
Rusheen R. Pettit
Ronald Eisenberg

A True Copy: °

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case 2:19-cv-00115-LPL Document 13 Filed 02/11/20 Page lot8

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

KATHLEEN MCCULLOUGH,
Petitioner,
v.
COMMONWEALTH OF
PENNSYLVANIA and THE
ATTORNEY GENERAL OF THE
STATE OF PENNSYLVANIA,
Respondents.

)
)
)
)
)
)
)
)
)

Civil Action No. 19-115

Magistrate Judge Lisa Pupo Lenihan

)
)
)

MEMORANDUM OPINION1
Pending before the Court is a Petition for Writ of Habeas Corpus (“Petition”) filed by
Petitioner Kathleen McCullough (“Petitioner”) pursuant to 28 U.S.C. § 2254, as amended by the
Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”). (ECF No. 9.) For the
reasons set forth herein, the Petition will be dismissed as untimely.
A. Procedural History
Following a jury trial, Petitioner was convicted of two counts of theft by deception, one
count of unlawful use of computers and one count of computer trespass. (ECF Nos. 4-1, 4-2.)
On August 27, 2010, Petitioner was sentenced to two to four years imprisonment (RRRI eligible)
and ten years of probation. Id. Her post-sentence motions were denied on November 15, 2010.

1 In accordance with the provisions of 28 U.S.C. § 636(c)(1), the parties have voluntarily
consented to have a United States Magistrate Judge conduct proceedings in this case, including
the entry of a final judgment. See ECF Nos. 11 & 12.
1

Case 2:19-cv-00115-LPL Document 13 Filed 02/11/20 Page 2 of 8

Id. On November 19, 2010, she filed an appeal to the Pennsylvania Superior Court, and her
judgment of sentence was affirmed on March 9, 2012. (ECF No. 4-3, pp.1-5.) Petitioner then
filed a Petition for Allowance of Appeal (“PAA”), which the Pennsylvania Supreme Court
denied on August 1, 2012. (ECF No. 4-3, p.6.) She did not seek further review with the United
States Supreme Court.
On April 1, 2013, Petitioner filed a pro se petition pursuant to the Pennsylvania PostConviction Relief Act (“PCRA”), and she filed a supplemental petition on March 2, 2015. (ECF
Nos. 4-1, 4-2.) A PCRA hearing was held on October 16th, 23rd and 30th of 2015, and PCRA
relief was denied on January 29, 2016. (ECF No. 1-4.) Petitioner appealed (ECF No. 4-3, pp.914), and the Superior Court affirmed the dismissal of PCRA relief on June 30, 2017. (ECF Nos.
1-3; 4-3, pp. 15-19.) The PAA was denied on February 6, 2018. (ECF Nos. 1-2; 4-3, pp.20-22.)
Petitioner filed her Petition in this case on February 4, 2019. (ECF No. 1.) On March 13,
2019, Respondents filed a Motion to Dismiss it as time-barred (ECF No. 4), and Petitioner filed a
response in opposition to that Motion on March 26, 2019. (ECF No. 7.) She also filed a Motion
for Summary Judgment and Brief in Support thereof on May 29, 2019. (ECF Nos. 8, 9.)
B. Statute of Limitations
AEDPA imposes a one-year limitations period for state prisoners seeking federal habeas
review. It is codified at 28 U.S.C. § 2244(d) and it provides:
(1)

A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State
court. The limitation period shall run from the latest of (A)

the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;

(B)

the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the
2

Case 2:19-cv-00115-LPL Document 13 Filed 02/11/20 Page 3 of 8

United States is removed, if the applicant was prevented from
filing by such State action;

(2)

(C)

the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if that right has been newly
recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or

(D)

the date on which the facts supporting the claim or claims
presented could have been discovered through the exercise of due
diligence.

The time during which a properly filed application for State post­
conviction or other collateral review with respect to the pertinent judgment
or claim is pending shall not be counted toward any period of limitation
under this section.

28 U.S.C. § 2244(d).
The statute of limitations set out in § 2244(d)(1) must be applied on a claim-by-claim
basis. Fielder v. Varner. 379 F.3d 113 (3d Cir. 2004), cert denied, 543 U.S. 1067 (2005). In
analyzing whether a petition for writ of habeas corpus has been timely filed under the one-year
limitations period, a federal court must undertake a three-part inquiry. First, the court must
determine the “trigger date” for the one-year limitations period pursuant to section 2244(d)(1).
Second, the court must determine whether any “properly filed” applications for post-conviction
or collateral relief were pending during the limitations period that would toll the statute pursuant
to section 2244(d)(2). Third, the court must determine whether any equitable tolling should be
applied on the facts presented or whether the petitioner has satisfied the fundamental miscarriage
of justice exception to excuse the untimely filing of his/her petition.

3

Case 2:19-cv-00115-LPL Document 13 Filed 02/11/20 Page 4 of 8

Here, the “trigger date” for all of Petitioner’s claims appears to be the date that her
judgment of sentence became final by the conclusion of direct review.2 In this case, Petitioner
was sentenced on August 27, 2010, and her judgment of sentence was affirmed by the
Pennsylvania Superior Court on March 9, 2012. The Pennsylvania Supreme Court then denied
her PAA on August 1, 2012. Because Petitioner did not seek further review, her judgment of
sentence became “final” 90 days later, or on October 30, 2012, when the time for filing a petition
for writ of certiorari in the United States Supreme Court expired. See Swartz v. Meyers. 204
F.3d 417, 419 (3d Cir.2000) (noting that a judgment becomes final at the conclusion of direct
review or the expiration of time for seeking such review, including the time limit (90 days) for
filing a writ of certiorari in the Supreme Court). Accordingly, absent any tolling, Petitioner had
one year from that date, or until October 30, 2013, to file a timely federal habeas petition in this
Court. Because the Petition was not filed until February 4, 2019, the Court will next consider
whether any portion of the one-year limitations period was tolled.
As to the second inquiry, the one-year limitations period was tolled during the
pendency of Petitioner’s “properly filed” state post-conviction proceedings pursuant to section
2244(d)(2). Here, a total of 152 days elapsed between the time Petitioner’s judgment of sentence

2 The claims Petitioner raises do not involve newly enunciated constitutional rights, the facts
supporting the claims are not newly discovered and no impediment existed that prevented
Petitioner from filing a timely habeas petition. Specifically, her first claim challenges the search
that took place on May 2, 2008 on the basis that it was illegal under the Fourth Amendment, and
her second and third claims, while not presented in a clear and concise manner, appear to raise
numerous allegations, including, inter alia, the denial of access to exculpatory evidence and the
ineffectiveness of her attorneys in failing to obtain it; conflicts of interests by all of the attorneys,
detectives and judges involved with her case at each level; violations of the rules of professional
conduct and ethics by those same individuals; the ineffective assistance of counsel for failing to
call witnesses; judicial bias and trial court error; denial of the right to call certain witnesses at her
PCRA hearing; and prosecutorial misconduct.
4

Case 2:19-cv-00115-LPL Document 13 Filed 02/11/20 Page 5 of 8

became final on October 30, 2012, and the day she filed her pro se PCRA petition on April 1,
2013,3 and that period of time is counted against the one-year statute of limitations. From April
1, 2013, until the day the Pennsylvania Supreme Court denied Petitioner’s PAA on February 6,
2018, there were properly filed post-conviction proceedings pending in the state court. The
statute of limitations was tolled during that time and recommenced running on February 7, 2018.
At that time, however, Petitioner had only 213 days remaining (365-152=213), or until
September 7, 2018, in which to file a timely petition in this Court. The Petition was not filed
until February 4, 2019, and therefore it is untimely.
Having failed to meet AEDPA’s one-year statute of limitations, the Petition can only be
saved by application of the doctrine of equitable tolling or the fundamental miscarriage of justice
exception. Petitioner, however, does not seem to acknowledge that her Petition was untimely
filed4 and therefore does not allege any facts to support entitlement to any equitable tolling or to
demonstrate a fundamental miscarriage of justice. Thus, the Petition must be dismissed as
untimely.
C. Certificate of Appealability
A certificate of appealability will be denied because Petitioner has not made a substantial
showing of the denial of a constitutional right or shown that jurists of reason would disagree that
his habeas petition was untimely filed. See, e.g., Slack v. McDaniel. 529 U.S. 473 (2000)
(explaining standard for grant of a certificate of appealability where court does not address

3 The date on which the PCRA is filed is not counted against the statute of limitations as it is
considered “pending” on that day.
4 Petitioner incorrectly states that she had one year from the day the Pennsylvania Supreme Court
denied her PAA in her PCRA proceedings to file a timely petition in this Court.
5

/

Case 2:19-cv-00115-LPL Document 13 Filed 02/11/20 Page 6 of 8

petition on the merits but on some procedural ground); Walker v. Government of the Virgin
Islands. 230 F.3d 82, 89-90 (3d Cir. 2000). A separate Order will issue.
Dated: February 11, 2020.
/s/ Lisa Pupo Lenihan
Lisa Pupo Lenihan
United States Magistrate Judge

6

Case 2:19-cv-00115-LPL Document 13 Filed 02/11/20 Page 7 of 8

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
KATHLEEN MCCULLOUGH,
Petitioner,
v.
COMMONWEALTH OF
PENNSYLVANIA and THE
ATTORNEY GENERAL OF THE
STATE OF PENNSYLVANIA,
Respondents.

)
)
)
)
)
)
)
)
)

Civil Action No. 19-115

Magistrate Judge Lisa Pupo Lenihan

)
)
)

ORDER
AND NOW, this 11th day of February, 2020;
IT IS HEREBY ORDERED that the Motion to Dismiss the Petition for Writ of Habeas
Corpus (ECF No. 4) is GRANTED and the petition is dismissed as untimely.
IT IS FURTHER ORDERED that Petitioner’s Motion for Summary Judgment (ECF
No. 8) is DENIED.
IT IS FURTHER ORDERED that a Certificate of Appealability is denied.
IT IS FURTHER ORDERED that the Clerk of Court enter judgment in favor of
Respondents and mark this case CLOSED.
AND IT IS FURTHER ORDERED that pursuant to Rule 4(a)(1) of the Federal Rules
of Appellate Procedure, Petitioner has thirty (30) days to file a notice of appeal as provided by
Rule 3 of the Federal Rules of Appellate Procedure.
/s/ Lisa Pupo Lenihan
Lisa Pupo Lenihan
United States Magistrate Judge
7

Case 2:19-cv-00115-LPL Document 13 Filed 02/11/20 Page 8 of 8

Cc:

Kathleen McCullough
107 Fairway Landings Drive
Canonsburg, PA 15317
Counsel of record
(Via CM/ECF electronic mail)

8

